   Office of Inspector General
          Audit Report


MORE COMPREHENSIVE DATA ARE NEEDED TO
 BETTER UNDERSTAND THE NATION’S FLIGHT
        DELAYS AND THEIR CAUSES
       Office of the Secretary of Transportation
  Research and Innovative Technology Administration
            Federal Aviation Administration

             Report Number: AV-2014-016
            Date Issued: December 18, 2013
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: More Comprehensive Data Are Needed                                        Date:      December 18, 2013
           To Better Understand the Nation’s Flight Delays
           and Their Causes
           Office of the Secretary
           Research and Innovative Technology Administration
           Federal Aviation Administration
           Report No. AV-2014-016

  From:    Jeffrey B. Guzzetti                                                           Reply to JA-10
           Assistant Inspector General                                                   Attn. of:
              for Aviation Audits

    To:    Assistant Secretary for Administration
           Deputy Administrator, Research and Innovative Technology Administration
           Federal Aviation Administrator

           The causes and impacts of flight delays and cancellations continue to be a key
           concern for Congress, the Department of Transportation (DOT), the airline industry,
           and the flying public. In 2000, we issued our report 1 assessing the extent of flight
           delays and their nationwide impact. Our report and subsequent testimony 2 also
           highlighted concerns with how the Federal Aviation Administration (FAA) and
           Bureau of Transportation Statistics (BTS) 3 tracked and reported flight delays and
           cancellations and their respective causes, as well as air carriers’ scheduling practices
           at major airports. Since then, FAA and BTS have taken a number of steps to address
           these concerns, including improving data collection, tracking flight delay causal
           factors, and developing capacity benchmarks for the major airports. 4

           Given our previous findings and the significant changes to the aviation industry in the
           past decade, Congress directed us in the FAA Modernization and Reform Act of
           2012 5 to update our 2000 report, as well as examine various delay statistics, air carrier
           1
             Air Carrier Flight Delays and Cancellations (OIG Report No. CR-2000-112), July 25, 2000. OIG reports are available on
           our Web site: http://www.oig.dot.gov.
           2
             Flight Delays and Cancellations (OIG Report No. CR-2000-122), September 25, 2000.
           3
             In 2005, BTS was incorporated into DOT’s Research and Innovative Technology Administration (RITA).
           4
             Capacity benchmarks are the Agency’s determinations of the maximum number of flights an airport can routinely and
           safely accommodate in an hour for the Nation’s largest airports.
           5
             Pub. L. No. 112-95, February 14, 2012.
                                                                                                                        2


scheduling practices, and airport capacity benchmarks. Accordingly, our audit
objectives were to (1) analyze recent flight delay and cancellation trends, (2) examine
air carrier scheduling practices and their relative impact in causing flight delays and
cancellations, and (3) review FAA’s use of capacity benchmarks to assess airport
capacity and monitor airline scheduling practices at the Nation’s largest airports.

We conducted this review in accordance with generally accepted Government
auditing standards. In conducting our analyses, we relied on information from BTS
and FAA databases containing flight delay, cancellation, and air carrier scheduling
data for 2000 to 2012. We also used data from FAA, such as capacity, performance,
and forecast reports. Exhibit A details our complete scope and methodology.

RESULTS IN BRIEF
Although the trends in flight delays, 6 cancellations, and long taxi times have
significantly improved over the last decade, data limitations hinder the Department’s
ability to track some of these delays or fully understand their causes. Overall, delays
fell by 33 percent from 2000 to 2012, and the number of cancellations nationwide has
decreased by 56 percent at the 55 major airports. 7 Various factors have contributed to
these downward trends, including a significant reduction in the number of scheduled
flights, favorable weather patterns, airport infrastructure improvements, and air traffic
control (ATC) procedural changes. While the Department has improved its process
for tracking flight delays and their causes since our 2000 report, further enhancements
are needed to provide the public with more complete information, as well as assist
aviation stakeholders in identifying the root causes of delays. For example, although
BTS does collect data on approximately 76 percent of all domestic flights, it lacks
information on the remaining 24 percent because only certain carriers are required to
report delays. 8 Moreover, while BTS now collects causal data for those flights with
reported delays, nearly 40 percent of these flights do not indicate the initial cause of
the delay. Instead, the air carriers report such flights as involving a “late arriving
aircraft,” without specifying why the aircraft arrived late. Addressing these data
problems would go far in giving key aviation stakeholders and the flying public a
fuller understanding of air carrier flight delays and their causes.

Air carrier scheduling practices also have had a major impact on reducing the number
of flight delays both nationwide and at specific airports. To help reduce reported
delays, air carriers expanded their schedules (that is, gate-to-gate times) on many of
their routes between 2000 and 2012. In 2000, for example, scheduled gate-to-gate
times exceeded actual flight times on 73 percent of air carrier routes we analyzed. By

6
  A flight is considered delayed when it arrives 15 minutes or more after its scheduled arrival time.
7
  Although FAA currently tracks 77 airports, our analysis focused on the 55 large and medium airports that the Agency
started tracking in 2000.
8
  Air carriers accounting for 1 percent or more of the total domestic scheduled-service passenger revenues are required to
report.
                                                                                                                             3


2012, scheduled times exceeded actual flight times on 98 percent of the flights we
analyzed. In some cases, air carriers increased their scheduled times to compensate for
routes where the actual flight time had been longer than previously scheduled.
However, for other routes, air carriers increased their scheduled flight times more
substantially. For example, on the LaGuardia-to-Indianapolis route, the average
scheduled gate-to-gate times increased 12 minutes even though the actual flight time
decreased 8 minutes. 9 As a result of these schedule increases, the number of delayed
flights on this route dropped from 58 percent to about 15 percent between 2000 and
2012. Similarly, the number of flights arriving 15 minutes or more ahead of schedule
rose from 7 percent in 2000 to 50 percent in 2012. While air carriers have helped to
reduce delays by increasing scheduled gate-to-gate times and reducing flight volume
by 18 percent at the 55 airports, over-scheduling and congestion remain a problem at
several major airports. For example, at New York’s Kennedy, LaGuardia, and
Newark airports, air carriers continue to schedule daily flights in numbers near or
above the airports’ capacity, particularly during certain peak periods. As a result, the
likelihood of delays at these airports is significantly increased, even though FAA has
established limits on the number of arrival and departure slots at all three airports. 10

In response to our recommendations, FAA has established capacity benchmarks (the
maximum number of flights that can be routinely and safely accommodated in an
hour) at the Nation’s largest airports. While FAA’s benchmarks have proven useful
for assessing capacity needs at these airports, the Agency has not shared them with
the public since 2004 (even though an internal update was performed in 2007).
Regularly published updates are critical to reflect changes in technology, air traffic
control procedures, and infrastructure at the major airports for stakeholders, including
Congress, airlines, airports, and the general public. Yet, FAA lacks a formal policy for
how often the benchmarks should be updated or published. FAA also has never used
the benchmarks for assessing air carrier scheduling practices because the Agency
considers them to be too static. Instead, FAA uses more real-time capacity
measures—known as “called rates” 11—to identify those airports at risk of
over-scheduling. However, this information is not published outside the Agency. As a
result, stakeholders may not be fully aware of current capacity constraints and
instances of over-scheduling at key airports.

We are making several recommendations to the Office of the Secretary of
Transportation (OST), FAA, and the Research and Innovative Technology
Administration (RITA) to improve the collection, reporting, and communication of
9
   In 2000, the average scheduled gate-to-gate time on this route was about 4 minutes less than the average actual time,
demonstrating that scheduling was not realistic. By 2012, the average schedule gate-to-gate time had been increased by
21 minutes, resulting in it being 17 minutes greater than the actual time.
10
   Currently in effect at Kennedy, LaGuardia, and Newark, slot controls entail the maximum number of hourly arrivals and
departures that air carriers can schedule. While slot controls help lessen the magnitude of flight delays, these three airports
continue to experience some of the highest delay rates in the Nation.
11
   “Called rates” are the maximum hourly number of arriving and departing flights an airport can safely handle as
determined by air traffic control given existing operational conditions, such as wind direction, weather, and volume.
                                                                                                                          4


flight delay and other related data, including airport capacity benchmarks and air
carrier over-scheduling.

BACKGROUND
Since July 2000, we have issued a number of reports and testified before Congress on
flight delays, air carrier customer service, and air traffic congestion nationwide (see
exhibit B). In doing so, we have made multiple recommendations to the Department
for improving on-time performance data collection and analysis, capacity
benchmarks, and tracking ground times (taxi times) once the aircraft departed the
gate.

BTS is responsible for collecting aviation performance data from reporting air
carriers. The data are available to the public and comprise the Department’s official
source of flight data, including the rankings of air carrier on-time performance, flight
delays by airport and air carrier, and significant taxi times. FAA, in contrast, is
responsible for managing the Nation’s ATC system. Building upon the BTS data
(which captures approximately 76 percent of domestic flights), FAA is able to
create—using estimates of taxi times—flight information for those air carriers not
reporting to BTS. FAA uses these data for assessing the performance of the ATC
system, identifying and monitoring delay problem areas, and devising corrective
actions. Since our 2000 report, both BTS and FAA have significantly improved their
processes for collecting data on flight delays and their causes (see exhibit C).

FLIGHT DELAYS AND CANCELLATIONS HAVE SIGNIFICANTLY
DECLINED, BUT DATA LIMITATIONS PREVENT A FULL
UNDERSTANDING OF THEIR TRUE NUMBER AND CAUSES
Since 2000, the number of flight delays, cancellations, and long taxi-out times has
improved, due to factors such as relatively favorable weather conditions in recent
years, airport infrastructure improvements, ATC procedural changes at major airports,
and a significant reduction in the number of scheduled flights. However, data
limitations hinder complete visibility into the extent of delays and their causes. For
example, BTS lacks information on nearly one-quarter of all commercial flights.
While FAA data are somewhat more comprehensive, FAA still relies mostly on BTS
data, augmented with estimates of non-reporting air carriers’ flight times. 12 In
addition, BTS causal data do not provide sufficient detail on the root causes of nearly
40 percent of flight delays.




12
   FAA calculates a flight’s length (gate-to-gate) for non-reporting air carriers by supplementing recorded takeoff and
landing times with estimated taxi-out and taxi-in times. These estimates are based on the median hourly taxi times by
airport, as calculated by FAA.
                                                                                                                            5


Trends for Delays, Cancellations, and Long Taxi Times Have Improved;
However, the Average Delay Is Longer
Between 2000 and 2012, air travel significantly improved in terms of the number of
delays and cancellations, as well as fewer flights experiencing long taxi in and out
times (that is, in excess of 1 hour). As table 1 illustrates, over the last 12 years, the
number of flight delays (15 minutes or more) and cancellations have declined
33 percent and 56 percent, respectively.

Table 1. Changes in Delay and Cancellation Key Indicators, 2000–2012 13
                                                                                                      Percent
             Indicator                                      Trend         2000           2012
                                                                                                      Change

             Delays                                                    2,094,078      1,405,863         -33%

             Cancellations                                              205,122         89,974          -56%

             Long Taxi Times (1+ hrs)                                    50,200         26,041          -48%

             Extreme Taxi Times (3+ hrs)                                 1,630             30           -98%

             Average Length of a Delayed Flight                          51:04           54:37          +7%
            Source: OIG Analysis of FAA (i.e., 55 airports) and BTS data.

Likewise, long taxi times 14 in excess of 1 hour have declined 48 percent. Larger
reductions in taxi times of more than 3 hours also occurred, especially after the
adoption of DOT’s tarmac rule in April 2010 that imposed stiff penalties if an air
carrier permitted an aircraft to remain on the tarmac for more than 3 hours without
providing passengers an opportunity to deplane. 15 For example, in 2000, the number
of flights with taxi times of more than 3 hours was 1,630 flights. Once the tarmac rule
went into effect in 2010, flights with taxi times over 3 hours dropped dramatically to
30 in 2012—a 98 percent reduction. 16

In contrast, the average length of flight delays did not improve over the last 12 years.
Specifically, for flights delayed 15 minutes or more, the average length of the delays
increased from 51 to 54 minutes. Therefore, even though flight delays had declined
overall, delays that did occur tended to be slightly longer in 2012 than they were in 2000. 17


13
   During this same time period, the number of scheduled flights declined by 18 percent.
14
   This calculation involved both aircraft taxi-out and taxi-in times.
15
   This rule, entitled “Enhancing Airline Passenger Protections,” became effective on April 29, 2010. An air carrier’s failure
to comply with this rule subjects the carrier to civil penalties of up to $27,500 per passenger.
16
   In accordance with the tarmac rule, DOT investigates each case in which a tarmac time exceeds 3 hours or more. Of the
30 flights with taxi-out or taxi-in times that exceeded 3 hours, DOT found 21 were in violation or are still pending
investigation. As part of a separate audit, we are reviewing DOT’s implementation of the tarmac rule and its effects on
causing cancellations.
17
   The growth in the average length of a delay reflects a greater drop in the number of flights with shorter delays versus
those that arrived excessively late (3 or more hours).
                                                                                                                           6


Good Weather, New Infrastructure, Revised ATC Procedures, and
Reduced Flight Schedules Have All Helped Reduce Flight Delays
Favorable Conditions Have Reduced the Impact of Weather on Flight Delays
Weather has always been a major factor in causing flight delays and cancellations—as
most recently emphasized by Hurricane Sandy in 2012, which shut down many of the
major airports in the northeast United States, resulting in more than 20,000 cancelled
flights. Notwithstanding this event, 18 relatively favorable weather conditions over the
last few years have contributed to the reduced number of delays across most of the
country. For example, as illustrated in figures 1 and 2, over 2.2 million scheduled
operations (that is, arriving and departing flights) were impacted by poor weather 19 in
2004, compared with approximately 1.5 million scheduled operations in 2012—a
decline of 34 percent. 20 Likewise, as shown in figure 2, the percent of flight delays
due to poor weather also declined from a high of 30 percent in 2004 to the current low
of only 16 percent in 2012.

Figures 1 and 2. Number of Scheduled Flight Operations and Percent of
Flight Delays Impacted by Poor Weather, 2004 Through 2012




 Source: OIG analysis of FAA (i.e., 55 airports) and BTS data.

Nevertheless, BTS believes weather has a larger impact on delays than currently
reported by air carriers, and has recently conducted a study to determine the extent
that weather causes delays. As part of this effort, BTS is working with FAA to include

18
   Other notable exceptions include, but are not limited to: Hurricanes Katrina and Rita (2005), Hurricane Ike (2008), and
“Snowmageddon”—the first North American blizzard of 2010.
19
   FAA records weather conditions (that is, none, minor, moderate, and severe) for each of the major airports. For our
analysis, we included only those flight operations impacted by moderate and severe weather conditions, such as high wind
speeds, poor visibility, and thunderstorms.
20
   While our other analyses for this report compare 2000 through 2012, causal data related to weather first became available
in June 2003. Therefore, this analysis begins with 2004, the first full year of available data.
                                                                                                                       7


the results of their research in an expanded version of publicly available causal delay
statistics. BTS reports it has completed its initial study; however, more work is
needed before any information can be presented to the public. Moreover, according to
BTS, additional funding will be necessary to complete development and deployment
of these data, and given current budget limitations, the project is not likely to move
forward at this time.

New Airport Infrastructure and ATC Procedures Have Helped Reduce Flight
Delays
New infrastructure has helped reduce flight delays at many of the Nation’s busiest
airports. Since 2000, 20 major airports previously designated by FAA as most critical
to improving the capacity and efficiency of the National Airspace System (NAS) have
completed substantial runway or taxiway projects that have served to increase
capacity or improve traffic flows. 21 For example, Atlanta—which added a fifth
runway in 2006 and a new taxiway in 2007—experienced a 37 percent decrease in
delays between 2000 and 2012. 22 Similarly, Denver opened a new runway in
September 2003 and experienced a 21 percent decrease in delays, even though the
number of scheduled flights increased 22 percent between 2000 and 2012. While
these numbers illustrate the beneficial impacts of infrastructure improvements on
flight delays, several of the Nation’s major airports with continuing congestion
concerns (i.e., LaGuardia, Newark, San Francisco, and Boston) face significant
challenges in adding new airfield infrastructure because of factors such as space
constraints and environment concerns.

Air traffic control improvements have also helped reduce delays. For example, at
Atlanta Hartsfield airport, a number of procedural changes have been implemented.
These improvements, such as increased runway separation procedures, allow for the
departure of three aircraft, whereas previously only two could depart simultaneously.
Similarly, the Port Authority of New York/New Jersey has implemented a departure
metering system that has helped decrease taxi times and reduced air carrier fuel costs.

Reduced Number of Flights Has Also Helped Reduce Delays
One of the most significant factors in the decrease in delays has been a significant
reduction in scheduled flights. With fewer flights, there are fewer opportunities for
delays to occur, specifically at congested airports. For example, the number of flights
at the 55 major airports that FAA tracked in 2000 dropped by 18 percent between
2000 and 2012, representing a decline of more than 3 million flights, while the overall
number of delays decreased by 33 percent. As table 2 shows, many of the larger

21
   These 20 airports were included in the Agency’s 35 Operational Evolution Partnership (OEP) airports. According to FAA,
more than 70 percent of passengers move through the OEP 35 airports. Since 2011, FAA has shifted its focus to tracking
capacity and efficiency needs at the Core 30 airports (a subset of the OEP 35).
22
   This project required extensive property acquisition and landfill to construct the runway and cost over $1 billion.
                                                                                                                             8


airports have experienced major reductions in both scheduled flights and delays,
including Pittsburgh, Cincinnati, St. Louis, Memphis, and Cleveland. (See exhibit D
for the changes in scheduled flights and delays at FAA’s OEP 35 airports.)

Table 2. Five Airports With Largest Percentage Decreases in Scheduled
Flights and Delays, 2000 Through 2012
                                            Percent Change in             Percent Change in
                        Airport
                                            Scheduled Flights             Number of Delays
                        Pittsburgh                   -75%                          -71%
                        Cincinnati                   -72%                          -78%
                        St. Louis                    -63%                          -67%
                        Memphis                      -50%                          -43%
                        Cleveland                    -44%                          -48%
                      Source: OIG Analysis of FAA data.

The drop in scheduled flights is due to various factors, the most significant being the
long-term impact of the 2008 economic recession on both major air carriers and the
flying public, and the consolidation of the domestic airline industry. For example,
table 2 shows that all five airports experienced significant declines in scheduled
flights due to one or more air carriers significantly reducing operations as a result of
air carrier mergers. These developments, coupled with significant changes in airline
business operations, have raised questions as to when (and if) the number of
scheduled flights and delays will return to previous highs.

FAA’s most recent projections predict that aviation will grow by 2.3 percent per year
from 2012 to 2040. However, the future of aviation growth remains unclear, despite
these projections. The Department’s primary means of forecasting future aviation
demand is FAA’s Terminal Area Forecast (TAF). Published annually, the TAF
provides both short- and long-term projections that FAA uses to help meet planning,
budgeting, and staffing requirements. The projections also provide inputs to the
Future Airport Capacity Task (FACT) assessment, 23 and contribute to the business
case for the Next Generation Air Transportation System (NextGen). 24

The TAF, however, generally does not factor in an airport’s capacity limitations, but
instead predicts demand in air traffic independent of the airports’ and ATC’s ability to
meet this need. While this information may be useful to support the need for new
airport infrastructure, it cannot be relied upon as a realistic forecast of airport traffic
growth. For example, in 1997, FAA projected Newark would reach 590,000 flights in

23
   The FACT report is an assessment of the future capacity of the Nation’s airports and metropolitan areas. Its goal is to
determine which airports and metropolitan areas have the greatest need for additional capacity.
24
   NextGen is FAA’s transformational plan to address congested airspace, longer travel times, and increased flight delays.
“Next Gen: The Business Case for the Next Generation Air Transportation System,” August 2012.
                                                                                                                            9


2010. Due to the September 11, 2001, terrorist attacks and the resulting downturn in
flights, FAA revised the 2010 projections in 2006 to 497,000. However, Newark only
experienced 409,000 actual flights in 2010, significantly below both the 1997 and
2006 TAF forecast. 25 In the end, none of the projections were realized, due to capacity
restrictions and unforeseen reductions in air traffic at Newark.

BTS Data Do Not Capture the True Number and Causes of Delays and
Cancellations
Nearly One-Fourth of All Domestic Flights Are Unreported
Information regarding air carrier performance is available to the public through data
provided by BTS—but not for all flights. 26 Currently, BTS captures data relating to
the domestic scheduled flights for only 16 of 76 U.S. air carriers. Under BTS’s
current reporting requirements, only those carriers whose domestic scheduled
passenger revenues account for 1 percent or more of the industry’s total are required
to report delays. (See exhibit E for a list of reporting air carriers.) While these
16 carriers are among the largest carriers with flights that carry about 80 percent of
domestic scheduled passengers, they only account for 76 percent of all such flights.27
BTS does not collect or publish data (and associated delay statistics) for the remaining
24 percent, which are primarily operated by regional air carriers and/or involve code
share operations. 28

Many regional air carriers—which are not required to report to BTS—operate more
flights and have a greater impact on the ATC system and airport congestion than
several of the reporting air carriers. Regional carriers often do not meet the reporting
threshold since they generally operate smaller aircraft and fly shorter distances with
fewer passengers (thereby generating less revenue) than the 16 carriers that are
required 29 to report delays. For example, Chautauqua Airlines, a non-reporting
regional carrier that partners with several mainline carriers, scheduled nearly 62,000
more flights than Hawaiian Airlines, which reports to BTS. Moreover, FAA’s flight
data indicate that Chautauqua may have had almost 26,000 delays in 2012—none of
which were reported to BTS—as compared to about 4,800 delays for Hawaiian.
However, since many regional carriers operate on behalf of mainline air carriers—but
do not meet BTS’s reporting requirements—their performance is not factored into the
overall performance of the mainline carriers in BTS’s published statistics.

25
   According to FAA officials, events such as 9-11 and the economic downturn of 2008 have short term impacts on
passenger demand, but over the longer term, these kinds of events have less impact on their forecasts.
26
   BTS data are available on the Web via the monthly “Air Travel Consumer Report” at http://www.dot.gov/airconsumer/air-
travel-consumer-reports. Individual data are available at http://www.transtats.bts.gov/.
27
   The primary cause for the difference is that the mainline carriers use larger aircraft than their regional partners.
28
   Code share operations consist of a marketing arrangement in which flights are operated on behalf of the mainline air
carrier by a smaller regional air carrier. Under these arrangements, mainline carriers contract for services of a regional
carrier to fly passengers to or from their larger hub airports.
29
   Of the 16 reporting carriers, 15 meet the reporting threshold and one carrier reports voluntarily. Moreover, once a carrier
volunteers to report, DOT requires it to continue to do so for at least 12 consecutive months.
                                                                                                                        10


As a result of these limited data reporting requirements, BTS’s published flight delay
data present the public with an incomplete picture of the number of delays that
actually occur at a given airport or are generated by all carriers. For example, the
reporting carriers at Philadelphia International Airport recorded 13,794 delays in 2012
to BTS. However, using FAA flight data, 30 we estimate that Philadelphia had
significantly more delays than were reported due to the exclusion of regional carrier
data. When regional carrier data are factored in, the number of total delays for
Philadelphia grows to 38,111—a 64 percent increase over the number of delays in
BTS’s database. Table 3 illustrates the extent flight delays are being underreported at
Philadelphia as well as at four other airports, according to FAA internal data. (See
exhibit F for the number of reported and unreported delays at FAA’s OEP
35 airports.)

Table 3. Examples of Reported and Unreported Delays at Selected
Airports in 2012
             Airport                                          Delays                         Percent of
                                                                                               Delays
                                             Reported       Unreported          Total
                                                                                             Unreported
             Philadelphia                      13,794          24,317          38,111             64%
             Detroit                           12,992          13,483          26,475             51%
             Cincinnati                         4,302           3,916           8,218             48%
             Charlotte                         17,417          14,724          32,141             46%
             Washington Reagan                 12,287           9,600          21,887             44%

            Source: OIG analysis of FAA data.

FAA relies heavily on the flight data BTS collects from air carriers to monitor flight
delays, taxi times, and system performance. However, because BTS does not collect
data on approximately 24 percent of the domestic scheduled passenger flights, FAA
supplements BTS data with estimates for gate arrival and departure times based on
FAA’s own internal data systems. In doing so, FAA is able to expand flight data from
the roughly 76 percent collected by BTS to 91 percent of all domestic scheduled
passenger traffic. Nevertheless, this data expansion is based on estimates, not actual
data, making it less precise than if the air carriers were reporting the missing flight
data. Therefore, if the number of carriers required to report to BTS increased, FAA
would be able to reduce the percentage of flights for which it estimates data and
improve the accuracy of its analyses using these data.

To improve published data on flight delays, DOT is considering the adoption of a rule
to lower the reporting threshold, as well as requiring mainline carriers to report on-
time performance for their code share operations. For example, we estimate that if

30
  FAA’s data captures all flights departing from or arriving at one of the Agency’s designated 77 ASPM airports, as well as
22 ASPM air carriers operating at the non-ASPM airports.
                                                                                                                       11


DOT lowered the reporting threshold from the current 1 percent to .5 percent, as well
as required the reporting air carriers to include their code share operations, DOT
would increase the percent of domestic scheduled passenger flights it captured from
76 percent to 92 percent. 31

Causal Data Lack Sufficient Detail on Over One-Third of All Reported Flight
Delays
BTS’s data on flight delays are also limited by a lack of information on the root
causes of many delays. While DOT requires air carriers to report the causes for flight
delays and cancellations in their data submissions to BTS, one of the causal
categories—late arriving aircraft—does not provide sufficient detail on the initial
cause of the delays. 32

Starting in 2003, BTS began requiring air carriers to report the causes of flight delays
and cancellations, using broad categories such as air carrier, weather, NAS, 33 and
security, as well as late arriving aircraft. Delays are categorized as “late arriving
aircraft” when the previous flight operated with the same aircraft arrives late,
resulting in the current flight departing late. This creates a ripple effect that
propagates to all later flights using that aircraft. However, unlike the other causal
categories, late arriving aircraft is a secondary cause of delays—as the initial delay
was due to one of the other primary factors, such as poor weather or aircraft problems.
Moreover, since the categories were developed in 2003, the number of delays reported
by the air carriers as “late arriving” has grown to represent the largest number of all
flight delays. As a result, BTS lacks data on the initial causes of more than a third of
reported flight delays. As figure 3 illustrates, 37 percent of all delays at the Nation’s
major airports were attributed to late arriving aircraft in 2012.




31
   According to DOT officials, they are currently in the process of issuing a Notice of Proposed Rulemaking on lowering the
threshold and requiring reporting carriers to include their code share operations.
32
   BTS began collecting causal data in June 2003. For a year-to-year comparison, we selected data for 2004 to 2012.
33
   Causes attributed to the broad category of the “NAS” include non-severe weather, volume, runway closures, ATC
equipment, and other.
                                                                                                                        12


Figure 3. Change in Delay Cause Reporting, 2004 vs. 2012




 Source: OIG Analysis of FAA (i.e., 55 airports) and BTS data.

Similarly, in our 2010 report on New York flight delays and their causes, 34 we
reported that FAA and other agencies had in part been hampered by the limitations of
existing flight data and analytic methods in their attempts to measure the impact of
late arriving aircraft on delay propagation. BTS also recognizes the limitations of the
existing causal categories. As a result, the Agency has undertaken an effort to
distribute delays attributed to late arriving aircraft into the other four primary delay
categories: carrier, weather, security, and NAS. While BTS’s undertaking is a step in
the right direction, it remains to be seen whether this will result in a more accurate
portrayal of the root causes of late arriving aircraft delays.

AIR CARRIER SCHEDULING PRACTICES CONTINUE TO AFFECT
DELAY RATES
Air carrier scheduling practices have affected the delay rate nationwide and at
individual airports. To help reduce reported delays, air carriers expanded their
schedules (gate-to-gate times) on many of their routes between 2000 and 2012. In
2000, scheduled gate-to-gate times exceeded actual flight times on 73 percent of
routes we analyzed. By 2012, this had grown to 98 percent. 35 While we found that
some of this increase was needed to address prior scheduling shortfalls, the practice of
adjusting scheduled gate-to-gate times alone does not mitigate the congestion air
carriers sometimes create through over-scheduling. In particular, we found
over-scheduling and congestion remain a problem at eight major airports, particularly
during peak periods.

34
   New York Flight Delays Have Three Main Causes, but More Work Is Needed To Understand Their Nationwide Effect
(OIG Report No. AV-2011-007), October 28, 2010.
35
   Our analysis included 2,021 routes flown between large or medium hub airports within the contiguous United States. In
selecting these routes, we focused only on those that included 15 flights or more per year in 2000, 2007, and 2012. We also
excluded outliers from our analysis, such as those flights that had arrived more than 1 hour early or were delayed more than
4 hours beyond their scheduled time as well as those flights to or from Alaska and Hawaii.
                                                                                                                           13


Air Carriers Continue To Adjust Flight Schedules To Reduce Delays
Adding extra minutes to schedules allows air carriers to better reflect actual flight
times as well as reduce delays by leaving themselves a margin to compensate for
unanticipated events. Expanding flight schedules has also contributed to more flights
arriving early than in the past. 36 In 2000, we reported that air carriers’ average
scheduled flight times exceeded their actual flight times in 9 of the prior 11 years.
Since 2000, air carriers have continued this practice. In our analysis of 2,021 routes
flown in 2000 and 2012, we found that air carriers had increased their scheduled flight
times (gate-to-gate times) from 73 percent of these routes to 98 percent. For example,
the published schedule for LaGuardia to Indianapolis in 2000 was on average
4 minutes less than the actual average flight time—creating a scheduling shortfall and
increased likelihood of delays. By 2012, air carriers had scheduled nearly 17 minutes
more than the actual gate-to-gate time (scheduling cushion), an overall change of
nearly 21 minutes. 37 Similarly, the number of flights arriving at least 15 minutes early
rose from 7 percent in 2000 to 50 percent in 2012. Table 4 lists those routes with the
largest changes in scheduled versus actual gate-to-gate times in 2000 and 2012. All
five of these routes had started out with significant scheduling shortfalls in 2000, but
by 2012 they had acquired fairly sizeable cushions.

Table 4. Routes With Largest Changes in Scheduled Over Actual Gate-
to-Gate Times, 2000 vs. 2012
                                                                              Scheduled Time Versus Actual Time
                                                                                          in Minutes
                                                                                 2000             2012
 Routes Between Large and Medium Hub Airports                                 (Shortfall)      (Cushion)           Change
 LaGuardia, NY to Indianapolis, IN                                               -3.71             16.81              20.52
 Boston, MA to Indianapolis, IN                                                  -5.02             15.09              20.11
 Kennedy, NY to Dallas-Ft. Worth, TX                                             -5.25             13.69              18.94
 Kennedy, NY to Minneapolis, MN                                                  -4.52             13.96              18.48
 Washington Dulles, VA to Las Vegas, NV                                          -4.34             13.75              18.09
Source: OIG analysis of FAA data.

Increasing scheduled flight times corresponds with a decrease in delays on these
routes. For example, as a result of the increasing gate-to-gate time on the LaGuardia
to Indianapolis route, the delay rate dropped from about 58 percent to nearly
15 percent. 38 See table 5 for additional examples of large reductions in the delay rate
between 2000 and 2012.


36
   For all domestic passenger flights in the United States, those arriving 15 minutes or more early rose from 9 percent in
2000 to 20 percent in 2012.
37
   Not all flights flown in 2012 experienced these large increases in excess scheduled versus actual flight time. The average
excess scheduled versus actual flight time for the routes we analyzed was 4.81 minutes.
38
   Nationally, the delay rate dropped 7 percentage points (i.e., from 28 percent to 21 percent) between 2000 and 2012.
                                                                                                                        14


Table 5. Routes With Largest Increases in Scheduled Over Actual
Gate-to-Gate Times and Change in Percent of Flights Delayed
                                                                                        Percent Delayed
 Routes Between Large and Medium Hub Airports                                 2000             2012             Change
 LaGuardia, NY to Indianapolis, IN                                          58.32%            14.81%           -43.51%
 Boston, MA to Indianapolis, IN                                             59.21%            11.84%           -47.37%
 Kennedy, NY to Dallas-Ft. Worth, TX                                        39.64%            23.65%           -15.99%
 Kennedy, NY to Minneapolis, MN                                             37.55%            16.57%           -20.99%
 Washington Dulles, VA to Las Vegas, NV                                     45.20%            20.67%           -24.53%
Source: OIG analysis of FAA data.

Increasing scheduled flight times when necessary can improve on-time performance
as air carriers provide themselves with more flexibility to handle any issues that might
impact a flight’s arrival time. However, this practice of adjusting scheduled gate-to-
gate times alone does not mitigate the congestion air carriers sometimes create
through over-scheduling.

Despite Schedule Reductions Nationwide, Congestion and Significant
Delays Continue at the Largest Airports
Since we reported in 2000,         Figure 4. Percent Change in Flights, by Hub
there has been a significant                              Size, 2000–2012
reduction in scheduled flights
nationwide. However, some                         Large       Medium  Small Non Hub
                                         0%
airports were affected much
more heavily. In particular,           -10%
while medium, small, and
                                                  -13%
non-hub       airports 39     lost     -20%
between 26 and 42 percent of
scheduled flights, large hub           -30%                           -26%
airports only experienced a                                    -33%
13 percent reduction (see              -40%
figure 4).      Air       carriers                                           -42%
continued to heavily schedule          -50%
flights at large airports,
especially      during       peak Source: OIG analysis of FAA data.
periods. As a result, congestion and delays still persist at several of the Nation’s
largest hub airports.



39
  FAA categorizes airports by the percent of annual passenger enplanements. Medium Hub airports have less than 1 percent
but at least .25 percent, Small Hubs have less than .25 percent and at least .05%, Non-Hub airports are those with less than
.05% and at least 2,500 annual passengers.
                                                                                                                     15


FAA is monitoring 30 major airports and has placed eight of these on a “watch list”
due to their likelihood of experiencing increased delays. These include Atlanta,
Boston, Chicago, Kennedy, LaGuardia, Newark, Philadelphia, and San Francisco.
Figure 5 illustrates the close relationship between increases in scheduled flights and
delays at Kennedy. 40 For example, during certain peak periods, the number, rate, and
average length of flight delays increases significantly once the number of scheduled
flights exceeds 20 flights per quarter hour over an extended period. At 8 a.m., when
air carriers scheduled 21 flights, 21 percent of flights were delayed. Later in the day,
delays build as scheduling grows. For example, at 2:45 p.m. when 35 flights were
scheduled, the delay rate increased to 33 percent.

Figure 5. Kennedy Weekday Average Scheduled Flights and
Delays by Quarter Hour, June Through August 2012




 Source: OIG analysis of FAA data.

Similarly, at Newark, delays vary throughout the day, but they increase as the number
of scheduled flights rise. For example, at 8 a.m. the delay rate is 28 percent. However,
shortly after 5 p.m. until after 10 p.m., Newark’s delay rate reaches around 50 percent.
The third New York airport, LaGuardia, also suffers from congestion and delays.
However, delays are consistently high, regardless of time. Overall, air carrier
scheduling practices significantly increased the likelihood of delays at all three New
York airports, even though FAA has instituted slot controls to limit the number of
hourly flights. 41 (Exhibit G contains additional figures and descriptions of activity at
each of the watch list airports.)



40
   This analysis included all flights scheduled to arrive at or depart from Kennedy, as well as associated delays.
41
  Although these slot controls are scheduled to expire on October 24, 2014, according to officials in FAA’s Office of
General counsel, FAA is in the process of issuing a notice of proposed rulemaking to seek comments on how or whether the
slot controls will be continued at the New York airports.
                                                                                         16


FAA’S BENCHMARKS ARE USED TO ASSESS AIRPORT
CAPACITY, BUT NOT TO MONITOR AIR CARRIER SCHEDULING
PRACTICES
Although FAA’s capacity benchmarks have proven useful for measuring airport
capacity, they have not been updated since 2004. While FAA plans to publish new
benchmarks later this year, the Agency lacks a formal policy for how regularly the
benchmarks should be updated or published. Moreover, FAA has never used them for
assessing air carrier scheduling practices. Instead, each month, FAA’s Air Traffic
Organization (ATO) assesses schedules using a different airport capacity measure—
known as “called rates”—which represent the maximum number of arriving and
departing flights an airport can safely handle. However, FAA does not make these
assessments available outside the Agency, even though they provide valuable
information that could encourage collaboration among stakeholders—including
Congress, airlines, airports, and the general public—to reduce over-scheduling and
delays.

Benchmarks Have Proven Useful for Measuring Airport Capacity
In 2000, we recommended that FAA develop a set of capacity benchmarks for the
Nation’s 30 largest airports. 42 Our intent was for FAA to use these benchmarks to
identify capacity benefits from operational and infrastructure improvements and
measure excess volume (over-scheduling). In response, FAA established benchmarks
in 2001 for 31 airports and defined the benchmarks as the maximum number of flights
an individual airport runway can routinely handle in an hour under two weather
scenarios. In 2004, FAA updated these benchmarks and used them as key inputs to the
Agency’s first FACT study. FAA’s FACT studies involve an in-depth evaluation of
capacity, and identify those airports in greatest need of improvements to mitigate
future delay and congestion at a system wide level. The 2004 update also expanded
the benchmarks to consider capacity in 3 varying weather conditions and increased
the airports covered from 31 to 35.

However, since 2004, FAA has not issued updated benchmarks. According to FAA,
updates are necessary due to changes in aviation trends and new runways that have
been added at some major airports. Publishing updated information, therefore, is
important not only for internal FAA purposes, but also to provide key aviation
stakeholders, such as air carriers, airports, and passengers, with the current capacity
limits of the Nation’s major airports. In 2007, FAA issued a FACT 2 report that used
updated benchmarks and increased the number of airports covered to 56. While these
benchmarks were used as source data for FACT 2, they were never made public. To
the Agency’s credit, FAA officials told us that they are in the process of completing a
new benchmark report and expect to publish it later this year. For the longer term,
FAA also plans on updating the benchmarks every 3 years.
42
     Flight Delays and Cancellations (OIG Report No. CR-2000-122), September 25, 2000.
                                                                                                                       17


Instead of Benchmarks, FAA Uses “Called Rates” To Monitor
Over-Scheduling at the Nation’s Largest Airports
Beyond measuring capacity, we also recommended in 2000 that FAA use benchmarks
to monitor air carrier schedules for excess volume (over-scheduling). However, FAA
considered the benchmarks to be too limited for assessing over-scheduling. In
particular, the benchmarks provide only a static measure of hourly arrival and
departure rates, which only considers the optimum runway configuration. 43 The
benchmarks also do not account for real-time conditions that can change daily or even
hourly, such as visibility, wind direction, and runway availability.

To avoid these limitations, FAA’s ATO elected in 2008 to start using dynamic
measures of real-time conditions known as “called rates,” which represent the
maximum number of arriving and departing flights an airport can safely handle, to
make comparisons with airline schedules. 44 Under this approach, ATO has produced
an internal monthly report 45 showing those airports at greatest risk of over-scheduling
and delays—with the most recent report identifying eight “watch list” airports:
Atlanta, Boston, Newark, Kennedy, LaGuardia, O’Hare, Philadelphia, and San
Francisco. According to FAA officials, if the ATO’s results show an air carrier is
over-scheduling, the Agency will negotiate schedule changes with the air carriers. 46
For example, in 2010, FAA successfully negotiated revised schedules with air carriers
at San Francisco to reduce congestion and avoid significant growth in delays.

While the ATO’s monthly report satisfies the intent of our 2000 benchmark
recommendation to monitor excess volume, FAA currently does not make this report
available to Congress, air carriers, airports, or the general public. Incorporating the
results of this analysis into the benchmark report would benefit aviation stakeholders
by providing a valuable tool for helping reduce over-scheduling and prevent delays.

CONCLUSION
Flight delays impact millions of passengers each year, prompting attention from
Congress, DOT, and other stakeholders interested in increasing the efficiency of the
NAS. In recent years, significant changes to the airline industry have had a positive
impact on reducing flight delays, and both FAA and BTS have significantly improved
their collection of data on delays and their causes since 2000. However, the usefulness
of these data will remain limited until DOT increases the number of reporting carriers

43
   Based on computer modeling, the optimum configuration represents the maximum number of arriving or departing flights
a runway can handle during good, moderate, or poor weather conditions.
44
   The main impetus for FAA’s decision to monitor airport congestion grew out of the significant increase in flights and
delays at Kennedy in 2007. In this instance, the Agency was caught off-guard by the rapid increase in scheduled flights and
resulting delays which propagated across the country,
45
   Scheduled Operations and Delays at the Core 30 Airports.
46
   In the FAA Modernization and Reform Act of 2012 (Pub. L. No. 112-95), Congress authorized the FAA Administrator to
take action as necessary to ensure that reductions are implemented if air carriers are found to be exceeding hourly maximum
departure and arrival rates.
                                                                                     18


and collects more robust data on the initial causes of delays. In addition, FAA will
need to continue to monitor air carriers’ scheduling practices at the Nation’s largest
airports, especially those most congested airports on its watch list. Only then will
FAA be able to determine the best ways to meet traffic demand and provide
transparent congestion and delay information to stakeholders.

RECOMMENDATIONS
To improve the completeness and the reliability of aviation industry data collected by
BTS, a component of RITA, and FAA, we recommend that OST:

1. Expand the required reporting of on-time performance data to include flights by
   the code share partners of the reporting carriers.

2. Increase the number of carriers required to report on-time performance data by
   reducing the reporting threshold below 1 percent of all domestic passenger
   revenues.

We recommend that RITA:

3. Complete ongoing efforts to identify the underlying causes of delays attributed to
   late arriving aircraft and make them available on BTS’s public Web site.

We recommend that FAA:

4. Establish and implement a policy to periodically update and publish the capacity
   benchmarks.

5. Establish and implement a policy to ensure the consistent preparation, publication,
   and appropriate distribution of the ATO’s Core 30 Monthly Delay Report.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST, RITA, and FAA with our draft report on September 6, 2013, and
received their formal combined response on December 2, 2013. The response is
included in its entirety as an appendix to this report.

In its response, OST partially concurred with recommendations 1 and 2, stating that
the implementation of both these recommendations requires a rulemaking that OST is
currently initiating. We support OST’s efforts and therefore consider these
recommendations resolved but open pending the completion of the rulemaking.

For recommendation 3, RITA concurred with our recommendation and stated that it
will work with OST and FAA in determining the priority and resources needed to
                                                                                19


identify the underlying causes of flight delays due to late arriving aircraft. We
therefore consider this recommendation resolved but open pending development of a
system for identifying the initial causes of late arriving aircraft.

Finally, FAA concurred with recommendations 4 and 5, and its proposed actions are
responsive. Therefore, we consider these recommendations resolved but open pending
completion of planned actions.

ACTIONS REQUIRED
OST, RITA, and FAA’s planned actions for recommendations 1 through 5 are
responsive, and we consider them resolved but open pending completion of the
planned actions.

We appreciate the courtesies and cooperation of OST, RITA, and
FAA representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-0500 or Darren Murphy, Program Director, at
(206) 220-6503.

                                        #

cc: DOT Audit Liaison (M-1)
    FAA Audit Liaison (AAE-100)
    RITA Audit Liaison (RTC-1)
                                                                                                                           20


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit between April 2012 and September 2013 in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

To analyze flight delay and cancellation trends, we relied on FAA’s Aviation System
Performance Metrics (ASPM) 47 database as well as the Bureau of Transportation
Statistics (BTS) 48 on-time performance data for the years 2000 through 2012. In many
instances, we compared the results of our analysis from each of these different
databases to identify any limitations or inconsistencies. We also met with officials
from FAA’s Air Traffic Performance Analysis and Strategy Office, Air Traffic
Control System Command Center, and the Office of Aviation Policy and Plans. In
addition, we met with officials from DOT’s Office of Aviation Enforcement and
Proceedings and BTS’s Office of Airline Information.

To determine air carrier scheduling practices and their impact on flight delays and
cancellations, we relied on FAA’s Flight Schedule Data System (FSDS) 49 database to
identify the trends in scheduled flights both nationally and by individual airport as
well as by size of airport. We used FAA’s ASPM database to determine the change in
scheduled and actual gate-to-gate times for all U.S. domestic routes flown between
the years 2000 and 2012. Where possible, we compared our results using FSDS,
ASPM, and BTS on-time performance databases to determine the reliability and
accuracy of our findings and conclusions. We also met with or contacted officials
from Airlines for America, Regional Airline Association, JetBlue Airways, Alaska
Airlines, and Delta Air Lines. Finally, we examined FAA’s Terminal Area Forecast
(TAF) 50 reports to determine the reliability and reasonableness of FAA’s forecasting
related to air carrier scheduling growth. To gain a better understanding of the
methodology used to create the TAF, we met with officials from FAA’s Forecast and
Performance Analysis Division who are specifically responsible for developing and
reporting TAF data.



47
   ASPM is an FAA database of air traffic control performance measures that includes flight delays, cancellations, actual
flight operations, taxi times, weather impact, and delay rates at 77 of the busiest U.S. airports.
48
   BTS on-time performance data includes information on, flight delays, cancellations, delay rates, taxi-in and -out delays,
scheduled flights, and causes of delays. They are based on data filed each month by the 16 reporting air carriers with BTS’
Office of Airline Information as described in 14 CFR Part 234 of DOT’s regulations.
49
   FSDS is an FAA database of published air carrier flight schedules and includes all U.S. domestic and international air
traffic. From January 2000 through November 2008, FAA obtained flight schedule data from the Official Airline Guide.
Starting in December 2008, FAA uses published data from Innovata.
50
   TAF includes historical and forecasted flight operations by airport. The TAF is used by FAA and airport sponsors as a
basis for planning airport improvements.

Exhibit A. Scope and Methodology
                                                                                     21


To assess FAA’s use of capacity benchmarks, we obtained and analyzed FAA’s
Capacity Benchmark Reports for the years 2001, 2004, and the 2012 draft version.
For each of these reports, we compared the methodology and results to identify any
differences that may have impacted the benchmarks’ usefulness. We obtained and
reviewed FAA airport planning documents, such as FACT reports, as well as ATO’s
analysis of air carrier scheduling at select airports (Scheduled Operations and Delays
at the Core 30 Airports Report) to determine if the benchmarks were used as a source
for these reports. We also met with officials from FAA’s Office of Airport Planning
and Programming, Air Traffic Performance Analysis and Strategy Office as well as
officials from MITRE Corporation to obtain their insight on how the benchmarks are
used.

We did not systematically audit or validate the data contained in any of the databases
nor did we perform sufficient tests to draw conclusions or form an opinion on the
completeness or accuracy of the data sources. However, for this audit as well as in
previous audits that included these databases, we conducted trend analyses and
random data checks to assess reasonableness and comprehensiveness of our results.
When we identified anomalies or apparent limitations in the data, we conducted
additional analysis to better understand the data and, if necessary, exclude some of the
data or disclose the existing limitations. Finally, we held discussions with managers
responsible for maintaining the databases to understand and attempt to resolve any
noted inconsistencies. As a result of these efforts, we determined that the data were
sufficiently reliable for our purposes.




Exhibit A. Scope and Methodology
                                                                                              22


EXHIBIT B. OIG REPORTS AND TESTIMONIES ADDRESSING
FLIGHT DELAYS AND CANCELLATIONS
•   Air Carrier Flight Delays and Cancellations (OIG Report No. CR-2000-112),
    July 25, 2000.

•   Flight Delays and Cancellations (OIG Report No. CR-2000-122), September 25,
    2000.

•   Flight Delays and Cancellations (OIG Report No. CR-2001-050), April 3, 2001.

•   Actions To Improve the Performance of the National Aviation System (OIG
    Testimony No. CC-2001-171), May 3, 2001.

•   Actions To Enhance Capacity and Reduce Delays and Cancellations (OIG Report
    No. CR-2001-075), August 17, 2001.

•   Short- and Long-Term Efforts To Mitigate Flight Delays and Congestion (OIG
    Report No. CR-2004-066), June 17, 2004.

• Outlook for Aviation Delays in the Summer of 2005 and Actions Needed To
  Mitigate Congestion in the Short- and Long-Term (OIG Testimony No. CC-2005-
  043), May 26, 2005.

•   Report on the Audit of Small Community Aviation Delays and Cancellations (OIG
    Report No. CR-2006-049), May 19, 2006.

•   Status Report on Actions Underway To Address Flight Delays and Improve Airline
    Customer Service (OIG Testimony No. CC-2008-058), April 9, 2008.

•   Progress and Remaining Challenges in Reducing Flight Delays and Improving
    Airline Customer Service (OIG Testimony No. CC-2009-067), May 20, 2009.

• New York Flight Delays Have Three Main Causes, But More Work Is Needed To
  Understand Their Nationwide Effect (OIG Report No. AV-2011-007), October 28,
  2010.


Note: OIG reports are testimonies are available on our Web site at http://www.oig.dot.gov/.




Exhibit B. OIG Reports and Testimonies Addressing Flight Delays and Cancellations
                                                                                                                  23


EXHIBIT C. KEY OIG 2000 REPORT RECOMMENDATIONS AND
RESULTING CORRECTIVE ACTIONS

Report Recommendations                                           Resulting Corrective Actions

Recommendation 1: FAA, in coordination with                        Since our 2000 report, FAA has
BTS, DOT’s Office of Aviation Enforcement &                         significantly enhanced ASPM to include all
Proceedings (C-70), and air carriers, continue                      air carrier reported delays and
development of a common system for tracking                         cancellations, and associated causal data
delays, cancellations, and causes, such as                          at 77 domestic airports.
improving Aviation System Performance Metrics
(ASPM).

Recommendation 2: FAA ensure future                                FAA relies on ASPM to measure all aspects
performance plans include one or more                               of ATC system performance. For example,
measures for assessing ATC performance that                         in its FY 2012 Business Plan, FAA’s ATO
                                  51
are based on ASPM (not OPSNET) data.                                states that it will continue to use, improve,
                                                                    and enhance ASPM as a means to monitor
                                                                    system performance.

Recommendation 3: BTS, in coordination with                        BTS has expanded the data it collects from
FAA and C-70, provide consumers the following                       the major air carriers. These data are then
information on a monthly basis: (a) major                           published in the monthly Air Travel
causes of delays and cancellations by airport,                      Consumer Report or made available on its
(b) routes with high cancellation rates by air                      public Web site. Examples include the
carrier, and (c) an improved measure for                            causes of delays and cancellations, flights
tracking ground times once the aircraft has                         (including the route) that are chronically
departed the gate.                                                  delayed or cancelled, and taxi times spent
                                                                    on the tarmac.

Recommendation 4: BTS, in coordination with                        Neither BTS nor FAA publicly report any
FAA and C-70, report on a quarterly basis the                       specific measure that identifies system-
Consumer Flight Delay Indicator (CFDI) or a                         wide increases or decreases in travel time.
comparable measure to more accurately portray                       However, both BTS and FAA databases
system-wide increases or decreases in travel                        collect sufficient information that a user
time.                                                               could identify such increases or decreases.

Recommendation 5: Develop Capacity                                 In 2001, FAA completed development of
Benchmarks for the 30 largest airports.                             capacity benchmarks for 31 of the Nation’s
                                                                    largest airports. In 2004, the Agency
                                                                    updated and expanded the benchmarks to
                                                                    consider capacity in varying weather
                                                                    conditions, and increased the airports
                                                                    covered from 31 to 35.




51
     FAA’s Operations Network (OPSNET) is the official source of NAS air traffic operations and delay data.

Exhibit C. Key 2000 OIG Report Recommendations and Resulting Corrective Actions
                                                                                                                   24


EXHIBIT D. CHANGE IN SCHEDULED FLIGHTS AND DELAYS AT
35 OEP AIRPORTS, 2000-2012
                                               Change in                     Change in
Airport
                                            Scheduled Flights             Number of Delays
Atlanta                                              3%                         -37%
Baltimore                                         -11%                          -28%
Boston                                            -32%                          -53%
Charlotte                                          31%                            7%
Chicago Midway                                      -6%                         -31%
Chicago O’Hare                                      -6%                         -40%
Cincinnati                                        -72%                          -78%
Cleveland                                         -44%                          -48%
Dallas                                            -23%                          -32%
Denver                                             22%                          -21%
Detroit                                           -13%                          -31%
Ft. Lauderdale                                       7%                           0%
                                                                                    52
Honolulu                                          -27%                        252%
Houston                                              6%                          23%
Kennedy                                              7%                          15%
LaGuardia                                           -6%                         -47%
Las Vegas                                            4%                         -28%
Los Angeles                                       -25%                          -39%
Memphis                                           -50%                          -43%
Miami                                             -19%                           -9%
Minneapolis                                       -16%                          -37%
Newark                                              -9%                           1%
Orlando                                           -13%                          -30%
Philadelphia                                        -2%                         -21%
Phoenix                                           -17%                          -52%
Pittsburgh                                        -75%                          -71%
Portland                                          -29%                          -48%
Salt Lake City                                      -6%                         -40%
San Diego                                         -13%                          -31%
San Francisco                                       -1%                          -5%
Seattle                                           -30%                          -58%
St. Louis                                         -63%                          -67%
Tampa                                             -29%                          -44%
Washington Dulles                                 -34%                          -32%
Washington Reagan                                    7%                         -10%
Source: OIG analysis of FAA data.




52
     Data on Honolulu is skewed because in 2000, only 12 percent of scheduled flights were captured by FAA data.



Exhibit D. Change in Scheduled Flights and Delays at 35 OEP Airports
                                                25


EXHIBIT E. LIST OF BTS REPORTING AIR CARRIERS
(JANUARY 2013)
Air Carriers Required to Report:

1. AirTran Airways
2. Alaska Airlines
3. American Airlines
4. American Eagle Airlines
5. ExpressJet Airlines
6. Delta Air Lines
7. Frontier Airlines
8. Hawaiian Airlines
9. JetBlue Airways
10. Pinnacle Airlines
11. SkyWest Airlines
12. Southwest Airlines
13. United Airlines
14. US Airways
15. Virgin America


Air Carriers Voluntarily Reporting:

16.   Mesa Airlines




Exhibit E. List of BTS Reporting Air Carriers
                                                                                        26


EXHIBIT F. REPORTED AND UNREPORTED DELAYS AT 35 OEP
AIRPORTS IN 2012
                                                      Delays               Percent of
             Airport                                                         Delays
                                       Reported      Unreported   Total    Unreported
Atlanta                                     56,995     4,007      61,002       7%
Boston                                      18,192     4,134      22,326      19%
Baltimore                                   17,557     1,839      19,396       9%
Cleveland                                    8,599     5,582      14,181      39%
Charlotte                                   17,417    14,724      32,141      46%
Cincinnati                                   4,302     3,916       8,218      48%
Washington Reagan                           12,287     9,600      21,887      44%
Denver                                      37,282     6,875      44,157      16%
Dallas                                      43,013     2,751      45,764       6%
Detroit                                     12,992    13,483      26,475      51%
Newark                                      32,898     7,911      40,809      19%
Ft. Lauderdale                              12,381     3,862      16,243      24%
Honolulu                                     6,471       476       6,947       7%
Washington Dulles                           14,117     5,506      19,623      28%
Houston                                     33,269     3,685      36,954      10%
Kennedy                                     17,303     4,192      21,495      20%
Las Vegas                                   21,278     4,260      25,538      17%
Los Angeles                                 39,567     1,924      41,491       5%
LaGuardia                                   19,610    14,046      33,656      42%
Orlando                                     20,191     1,282      21,473       6%
Chicago Midway                              12,630       443      13,073       3%
Memphis                                      4,493     2,556       7,049      36%
Miami                                       14,167       430      14,597       3%
Minneapolis                                 13,255     8,630      21,885      39%
Chicago O’Hare                              56,439    12,085      68,524      18%
Portland                                     7,930     1,627       9,557      17%
Philadelphia                                13,794    24,317      38,111      64%
Phoenix                                     23,382       517      23,899       2%
Pittsburgh                                   5,466     3,953       9,419      42%
San Diego                                   12,833       277      13,110       2%
Seattle                                     14,389     2,012      16,401      12%
San Francisco                               47,199       220      47,419       0%
Salt Lake City                              11,875       883      12,758       7%
St. Louis                                    9,218     3,938      13,156      30%
Tampa                                       11,171     1,676      12,847      13%
Source: OIG analysis of FAA and BTS data.




Exhibit F. Reported and Unreported Delays at 35 OEP Airports in 2012
                                                                                                                  27


EXHIBIT G. FAA’S EIGHT WATCH LIST AIRPORTS, AVERAGE
SCHEDULED FLIGHTS AND DELAYS BY QUARTER HOUR, JUNE
THROUGH AUGUST 201253
Figure G-1. Kennedy




 Source: OIG analysis of FAA data.

As figure G-1 shows, at 8 a.m., when air carriers scheduled 21 flights, 21 percent of
flights were delayed. Later in the day, delays increased as scheduling grew. For
example, at 2:45 p.m. when 35 flights were scheduled, the delay rate increases to
33 percent.

Figure G-2. Newark




 Source: OIG analysis of FAA data.

As figure G-2 shows, at 8 a.m. at Newark airport, when air carriers scheduled
25 flights, 28 percent of flights were delayed. Later in the day, delays increased as


53
  We relied on FAA data—even though some of the Agency’s delay statistics are based on estimates—to
present a more complete picture of congestion at the eight watch-list airports. Analysis included both arrivals
and departures.
Exhibit G. FAA’s Eight Watch List Airports, Average Scheduled Flights and Delays by
Quarter Hour, June Through August 2012
                                                                                                               28


scheduling grew. For example, at 5:15 p.m. when 27 flights were scheduled, the delay
rate reaches 50 percent.
Figure G-3. LaGuardia




     Source: OIG analysis of FAA data.

Figure G-3 shows that LaGuardia sees chronic delays throughout the day. At 9 a.m.,
when air carriers scheduled 27 flights, 39 percent of flights were delayed. At 4 p.m.
when slightly fewer flights were scheduled (25), the delay rate remains at 39 percent.

Kennedy, Newark, and LaGuardia are all slot controlled airports that limit the
maximum number of hourly arrivals and departures that air carriers can schedule. 54
While slot controls help lessen the magnitude of flight delays, these three airports
continue to experience some of the highest delay rates in the Nation. Moreover, FAA
officials note that congestion and delays could become worse at these airports if these
controls are allowed to expire on October 24, 2014.
Figure G-4. O’Hare




     Source: OIG analysis of FAA data.

54
  In addition to maximum numbers of flights per hour, carriers are required to use their slots 80 percent of the
time or risk losing them.
Exhibit G. FAA’s Eight Watch List Airports, Average Scheduled Flights and Delays by
Quarter Hour, June Through August 2012
                                                                                   29


As shown in figure G-4, O’Hare is another congested airport experiencing frequent
delays, which begin early in the morning and continue throughout the day. For
example, at 8 a.m., when air carriers scheduled 58 flights, 19 percent of flights were
delayed. In the afternoon and into the evening, delays increased. At 6 p.m., when air
carriers scheduled 48 flights, the delay rate peaked at 44 percent. Such congestion
continues at O’Hare although the airport has benefited from a major capital
improvement program in the past decade, which added additional runways and
taxiways.

Figure G-5. Atlanta




 Source: OIG analysis of FAA data.

Atlanta is the world’s busiest airport with nearly one million flights per year, and
despite recent capital improvements including a fifth runway, an end-around taxiway,
and a new terminal, congestion remains a problem. As shown in figure G-5, by
11 a.m., Atlanta had already experienced congestion, when air carriers scheduled
43 flights and 25 percent of flights were delayed. The delay rate continued to climb
throughout the afternoon and into the evening. By 8:30 p.m., when air carriers
scheduled 55 flights, the delay rate peaked at 41 percent.




Exhibit G. FAA’s Eight Watch List Airports, Average Scheduled Flights and Delays by
Quarter Hour, June Through August 2012
                                                                                   30


Figure G-6. San Francisco




Source: OIG analysis of FAA data.

At San Francisco, the number of delays reached very high rates several times
throughout the day as shown in figure G-6. For example, at 10:45 a.m., when air
carriers scheduled 25 flights, 45 percent of flights were delayed. By 12:45 p.m., the
delay rate rose to 56 percent. As congestion continued to build throughout the day and
into the evening, even as the number of scheduled flights dropped to 17 at 10:45 p.m.,
the delay rate remained extraordinarily high at 57 percent. Congestion remains a
problem at San Francisco for several reasons. These include inclement weather and
physical limitations on adding capacity, such as the San Francisco Bay and a major
highway that borders the airport.
Figure G-7. Boston




 Source: OIG analysis of FAA data.

As shown in figure G-7, at Boston, when the peak number of scheduled flights
approaches 20 or more per quarter hour, the delay rate also increases. Between the
hours of 7 to 10 a.m., there was only one peak above 20 flights per quarter hour with
an average delay rate of 18 percent. Having only one peak gave the airport added time
Exhibit G. FAA’s Eight Watch List Airports, Average Scheduled Flights and Delays by
Quarter Hour, June Through August 2012
                                                                                    31


to recover when flight volume dropped. In comparison, with more peak periods
during the evening hours, the delay rate climbed to 40 percent. Like San Francisco,
the harbor and surrounding urban development limit Boston’s ability to expand.

Figure G-8. Philadelphia




 Source: OIG analysis of FAA data.

As figure G-8 shows, like several other of the watch list airports, Philadelphia
experienced a delay rate that rose to a fairly high level relatively quickly and
continued to rise throughout the day. For example, by 7:30 a.m., when air carriers
scheduled 23 flights, the delay rate was already 30 percent. At 5:45 p.m., although air
carriers scheduled a similar number of flights (22), the delay rate rose to 49 percent.
This shows the impact of how congestion can grow although the number of scheduled
flights remains relatively constant. To help address congestion, Philadelphia is
planning to add another runway.




Exhibit G. FAA’s Eight Watch List Airports, Average Scheduled Flights and Delays by
Quarter Hour, June Through August 2012
                                                                     32


EXHIBIT H. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                           Title

Darren Murphy                                  Program Director

Charles Ward                                   Project Manager

Susan Zimmerman                                Senior Auditor

Linda Major                                    Senior Auditor

Michael Dunn                                   Auditor

Curtis Dow                                     Analyst

Petra Swartzlander                             Senior Statistician

Audre Azuolas                                  Writer-Editor




Exhibit H. Major Contributors to This Report
                                                                                                33


APPENDIX. AGENCY COMMENTS




U.S. Department of               Assistant Secretary for Administration       1200 New Jersey Ave., SE
Transportation                                                                 Washington, DC 20590

Office of the Secretary
of Transportation


                                        December 2, 2013


MEMORANDUM TO:                 Jeffrey B. Guzzetti,
                               Assistant Inspector General
                                 for Aviation and Special Program Audits


FROM:                          Brodi Fontenot
                               Assistant Secretary for Administration

SUBJECT:                       Department of Transportation’s (DOT) Response to Office of
                               Inspector General (OIG) Draft Report: More Comprehensive Data
                               are needed To Better Understand the Nation’s Flight Delays and
                               Their Causes


Chronic flight delays in the National Airspace System (NAS) today are less common than they
were a decade ago. The Federal Aviation Administration (FAA) has successfully addressed the
most significant contributors to chronic delays in years past through sustained improvements to
runway infrastructure, as well as improved air traffic control (ATC) procedures. The overall
reduction in flight schedules during the last few years has also been a major factor in the overall
reduction of flight delays.

The Research and Innovative Technology Administration (RITA), through the Bureau of
Transportation Statistics (BTS), supports this effort to better understand the causes of U.S.
commercial flight delays and to make the associated data as readily available as possible. BTS
believes the effort will contribute to the overall safety and efficiency in the NAS, and will benefit
the flying public by providing easier access to widely requested information.

Going forward, the FAA will continue to focus on improving capacity where necessary, including
further runway development, as well as efficiency and reliability improvements accompanying
NextGen implementation. Improved causality data and ongoing schedule monitoring are useful for
identifying systemic delays, but there will likely be diminishing opportunities for further reducing
chronic delays until significant NextGen capacity enhancements begin to come online. It is also
important to note that some delays will always be necessary for the NAS to operate safely and


Appendix. Agency Comments
                                                                                              34


efficiently. Nonetheless, the agency will continue to focus upon improving delay causality data
and the development of corrective actions whenever such opportunities are identified.


RECOMMENDATIONS AND RESPONSES

Recommendation 1: To improve the completeness and the reliability of aviation industry data
collected by BTS and FAA, we recommend that DOT expand the required reporting of on-time
performance data to include flights by the code share partners of the reporting carriers.

DOT Response: Concur-in-part. Implementation of this recommendation requires a
rulemaking. Part 234 of the Department’s rules requires carriers to file, among other data, on-
time performance information, which is publicized on the Department’s website, in its monthly
Air Travel Consumer Report, and by airlines. The Department intends to institute a rulemaking
that would expand the required reporting of on-time performance data to include flights by code
share partners of the reporting carriers. Our target action date for a notice of proposed
rulemaking is December 2013. In order to avoid prejudging the outcome of the rulemaking
process, the Department is concurring in part.

Recommendation 2: To improve the completeness and the reliability of aviation industry data
collected by BTS and FAA, we recommend that DOT increase the number of carriers required to
report on-time performance data by reducing the reporting threshold below 1 percent of all
domestic passenger revenues.

DOT Response: Concur-in-part. Implementation of this recommendation requires a
rulemaking. Currently, a reporting carrier which is defined as an air carrier that accounts for at
least one percent of domestic scheduled-passenger revenues is required to submit to DOT its
domestic scheduled passenger on-time performance data. The Department is considering
amending the definition of “reporting carrier” under Part 234 to include carriers that account for
less than 1 percent of all domestic scheduled passenger revenue. Our target action date for a
notice of proposed rulemaking is December 2013. In order to avoid prejudging the outcome of
the rulemaking process, the Department is concurring in part.

Recommendation 3: We recommend that RITA complete ongoing efforts to identify the
underlying causes of delays attributed to late arriving aircraft and make them available on BTS’s
public Web site.

RITA Response: Concur. The effort to identify the underlying causes of delays is important,
but the timeline for completing and posting this work is uncertain due to limited resources.
RITA will work with its Office of the Secretary (OST)/Office of Aviation Analysis and FAA
partners to determine the priority of this work, and the importance of investing both in the initial
analysis and the ongoing maintenance of this information, in the context of the entire Airline
Information portfolio. Our efforts should be complete by February 28, 2014.


Appendix. Agency Comments
                                                                                                                  35


Recommendation 4: Establish and implement a policy to periodically update and publish the
capacity benchmarks.

FAA Response: Concur. The FAA plans to complete publication of the existing benchmarks,
which are also known as airport capacity profiles, for the Core 30 airports 1 by December 31,
2013. Thereafter, the FAA plans to publish updates on the FAA’s public website including:
updates to specific airport capacity profiles when changes are identified, such as new runway
capacity projects or new ATC procedures that affect capacity. The first update to the profiles
will be posted to the FAA public website by August 31, 2014. With ongoing periodic updates,
the FAA expects the airport capacity profiles to be kept current with no profile being older than
five years.

Recommendation 5: Establish and implement a policy to ensure the consistent preparation,
publication, and appropriate distribution of the Air Traffic Organization’s (ATO) Core 30
Monthly Delay Report.

FAA Response: Concur. The FAA agrees to continue with the consistent preparation,
publication, and appropriate distribution of the ATO’s Core 30 Monthly Delay Report. The
ATO’s fiscal year 2014 business plan, available by November 30, 2013, will explicitly include
this report. The Delay Report will continue to be published at the beginning of each month,
and because of potentially sensitive information routinely contained in the report, the agency
intends to distribute this report internally.




1
  Core airports are identified as having significant levels of passengers or itinerant operations. Specifically, airports
with 1% or more of total enplanements (defined as large hubs) or airports with 0.75% or more of total non-military
itinerant operations are identified as Core airports. These airports have a significant impact on the overall
performance of the NAS. Currently, 30 airports in the NAS meet the criteria to be designated as a Core airport.



Appendix. Agency Comments
The following pages contain textual versions of certain complex graphs and
charts published in this document. These pages were not a part of the original
document but have been added here to accommodate assistive technology.

Figure 5. Kennedy Weekday Average Scheduled Flights and Delays by
Quarter Hour, June Through August 2012
Figure 5 shows the number of scheduled flights by quarter hour versus the
number of delayed flights starting at 6:00 am and continuing through 11:45 pm.
                 Scheduled   Delayed   Delay
  Quarter Hour
                  Flights    Flights   Rate
      6:00 AM        11          2     19%
      6:15 AM         7          1     17%
      6:30 AM        10          3     29%
      6:45 AM         9          2     24%
      7:00 AM        18          3     15%
      7:15 AM        15          3     19%
      7:30 AM        14          2     16%
      7:45 AM        15          5     30%
      8:00 AM        21          4     21%
      8:15 AM        14          3     23%
      8:30 AM        20          4     19%
      8:45 AM        10          2     24%
      9:00 AM        16          4     26%
      9:15 AM         9          2     26%
      9:30 AM        11          3     24%
      9:45 AM         9          2     25%
     10:00 AM        12          2     17%
     10:15 AM         7          2     26%
     10:30 AM         8          2     19%
     10:45 AM         8          2     27%
     11:00 AM        12          2     19%
     11:15 AM        12          3     24%
     11:30 AM        12          3     21%
     11:45 AM         7          2     25%
     12:00 PM         9          2     21%
     12:15 PM        10          2     25%
     12:30 PM        14          2     17%
     12:45 PM        19          4     21%
      1:00 PM        11          2     22%
      1:15 PM        18          5     27%
      1:30 PM        11          2     19%
      1:45 PM        29          8     28%
      2:00 PM        13          3     22%
      2:15 PM        15          7     48%
      2:30 PM        12          4     32%
      2:45 PM        35         12     33%
      3:00 PM        15          6     38%
      3:15 PM        16          5     32%
      3:30 PM        21          8     37%
                     Scheduled      Delayed   Delay
   Quarter Hour
                      Flights       Flights   Rate
         3:45 PM         21             9     44%
         4:00 PM         23            11     49%
         4:15 PM         15             7     45%
         4:30 PM         24            10     43%
         4:45 PM         13             8     59%
         5:00 PM         26            11     43%
         5:15 PM         14             7     48%
         5:30 PM         18             9     48%
         5:45 PM         16             6     38%
         6:00 PM         15             7     43%
         6:15 PM         17             7     43%
         6:30 PM         21            10     50%
         6:45 PM         18             8     46%
         7:00 PM         25            11     46%
         7:15 PM         21             9     45%
         7:30 PM         26            14     55%
         7:45 PM         10             3     34%
         8:00 PM         28            12     42%
         8:15 PM          8             4     54%
         8:30 PM         19             9     49%
         8:45 PM         12             6     48%
         9:00 PM         26            13     52%
         9:15 PM          8             4     46%
         9:30 PM         19             9     46%
         9:45 PM         16             8     51%
        10:00 PM         14             6     46%
        10:15 PM          8             3     40%
        10:30 PM          9             4     41%
        10:45 PM         14             6     42%
        11:00 PM          7             3     42%
        11:15 PM          3             1     45%
        11:30 PM          4             1     34%
        11:45 PM         14             5     37%
Source: OIG analysis of FAA data.


Figure G-1. Kennedy
Figure G-1 compares the number of Kennedy airport scheduled and delayed
flights starting at 6:00 am continuing through 11:45 pm.
                     Scheduled      Delayed   Delay
   Quarter Hour
                      Flights       Flights   Rate
         6:00 AM         11            2      19%
         6:15 AM          7            1      17%
         6:30 AM         10            3      29%
         6:45 AM          9            2      24%
         7:00 AM         18            3      15%
         7:15 AM         15            3      19%
         7:30 AM         14            2      16%
         7:45 AM         15            5      30%
               Scheduled   Delayed   Delay
Quarter Hour
                Flights    Flights   Rate
    8:00 AM        21          4     21%
    8:15 AM        14          3     23%
    8:30 AM        20          4     19%
    8:45 AM        10          2     24%
    9:00 AM        16          4     26%
    9:15 AM         9          2     26%
    9:30 AM        11          3     24%
    9:45 AM         9          2     25%
   10:00 AM        12          2     17%
   10:15 AM         7          2     26%
   10:30 AM         8          2     19%
   10:45 AM         8          2     27%
   11:00 AM        12          2     19%
   11:15 AM        12          3     24%
   11:30 AM        12          3     21%
   11:45 AM         7          2     25%
   12:00 PM         9          2     21%
   12:15 PM        10          2     25%
   12:30 PM        14          2     17%
   12:45 PM        19          4     21%
    1:00 PM        11          2     22%
    1:15 PM        18          5     27%
    1:30 PM        11          2     19%
    1:45 PM        29          8     28%
    2:00 PM        13          3     22%
    2:15 PM        15          7     48%
    2:30 PM        12          4     32%
    2:45 PM        35         12     33%
    3:00 PM        15          6     38%
    3:15 PM        16          5     32%
    3:30 PM        21          8     37%
    3:45 PM        21          9     44%
    4:00 PM        23         11     49%
    4:15 PM        15          7     45%
    4:30 PM        24         10     43%
    4:45 PM        13          8     59%
    5:00 PM        26         11     43%
    5:15 PM        14          7     48%
    5:30 PM        18          9     48%
    5:45 PM        16          6     38%
    6:00 PM        15          7     43%
    6:15 PM        17          7     43%
    6:30 PM        21         10     50%
    6:45 PM        18          8     46%
    7:00 PM        25         11     46%
    7:15 PM        21          9     45%
    7:30 PM        26         14     55%
    7:45 PM        10          3     34%
    8:00 PM        28         12     42%
    8:15 PM         8          4     54%
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         8:30 PM         19             9          49%
         8:45 PM         12             6          48%
         9:00 PM         26            13          52%
         9:15 PM          8             4          46%
         9:30 PM         19             9          46%
         9:45 PM         16             8          51%
        10:00 PM         14             6          46%
        10:15 PM          8             3          40%
        10:30 PM          9             4          41%
        10:45 PM         14             6          42%
        11:00 PM          7             3          42%
        11:15 PM          3             1          45%
        11:30 PM          4             1          34%
        11:45 PM         14             5          37%
Source: OIG analysis of FAA data.


Figure G-2. Newark
Figure G-2 compares the number of scheduled and delayed flights at Newark
airport from 6:00 am continuing through 9:45 pm.
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         6:00 AM              17               4      21%
         6:15 AM               7               2      25%
         6:30 AM              16               4      24%
         6:45 AM               8               2      26%
         7:00 AM              14               3      23%
         7:15 AM               8               2      25%
         7:30 AM              24               5      19%
         7:45 AM              17               5      32%
         8:00 AM              25               7      28%
         8:15 AM              10               3      33%
         8:30 AM              19               9      45%
         8:45 AM              14               6      43%
         9:00 AM              19              11      56%
         9:15 AM              10               5      48%
         9:30 AM              12               2      19%
         9:45 AM               8               2      24%
        10:00 AM              16               3      20%
        10:15 AM              11               2      20%
        10:30 AM              15               4      24%
        10:45 AM              12               3      24%
        11:00 AM              20               4      21%
        11:15 AM              11               2      22%
        11:30 AM              14               4      31%
        11:45 AM              16               4      26%
        12:00 PM              26               8      31%
        12:15 PM              11               3      29%
        12:30 PM              21               6      31%
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
        12:45 PM              17               5      30%
         1:00 PM              16               6      38%
         1:15 PM              16               5      33%
         1:30 PM              15               5      35%
         1:45 PM              22               7      34%
         2:00 PM              11               4      38%
         2:15 PM              18               6      33%
         2:30 PM              19               7      39%
         2:45 PM              24              10      41%
         3:00 PM              17               8      45%
         3:15 PM              21              11      53%
         3:30 PM              11               5      44%
         3:45 PM              22               9      43%
         4:00 PM              13               6      44%
         4:15 PM              16               7      46%
         4:30 PM              21               9      45%
         4:45 PM              21              10      48%
         5:00 PM              12               6      49%
         5:15 PM              27              13      50%
         5:30 PM              13               7      52%
         5:45 PM              16               9      57%
         6:00 PM              17              11      62%
         6:15 PM              26              15      56%
         6:30 PM              19              11      57%
         6:45 PM              13               9      67%
         7:00 PM              24              15      62%
         7:15 PM              19              11      59%
         7:30 PM              17              11      64%
         7:45 PM              10               6      57%
         8:00 PM              23              14      61%
         8:15 PM              26              14      55%
         8:30 PM              17              10      59%
         8:45 PM              12               8      66%
         9:00 PM              16               8      51%
         9:15 PM              21              11      52%
         9:30 PM              14               7      51%
         9:45 PM              16               9      58%
Source: OIG analysis of FAA data.


Figure G-3. LaGuardia
Figure G-3 compares the number of scheduled and delayed flights at LaGuardia
airport from 6:00 am and continuing through 10:45 pm.
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         6:00 AM              20               3      16%
         6:15 AM               5               1      25%
         6:30 AM              12               3      21%
         6:45 AM               9               2      24%
               Scheduled     Delayed        Delay
Quarter Hour
                Flights      Flights        Rate
    7:00 AM             16              4      27%
    7:15 AM             10              2      15%
    7:30 AM             22              3      14%
    7:45 AM             18              3      19%
    8:00 AM             17              4      25%
    8:15 AM             19              6      31%
    8:30 AM             17              8      46%
    8:45 AM             13              5      40%
    9:00 AM             27             11      39%
    9:15 AM              9              3      37%
    9:30 AM             18              6      32%
    9:45 AM             18              6      35%
   10:00 AM             21              8      38%
   10:15 AM             15              5      30%
   10:30 AM             15              5      36%
   10:45 AM             20              6      32%
   11:00 AM             19              7      35%
   11:15 AM             15              5      31%
   11:30 AM             18              6      34%
   11:45 AM             18              7      38%
   12:00 PM             21              7      32%
   12:15 PM             12              5      39%
   12:30 PM             18              6      31%
   12:45 PM             18              5      30%
    1:00 PM             16              6      35%
    1:15 PM             19              7      36%
    1:30 PM             15              6      38%
    1:45 PM             23              8      34%
    2:00 PM             16              5      31%
    2:15 PM             17              6      35%
    2:30 PM             16              6      39%
    2:45 PM             20              9      43%
    3:00 PM             22              9      40%
    3:15 PM             14              7      52%
    3:30 PM             18              7      37%
    3:45 PM             17              8      45%
    4:00 PM             25             10      39%
    4:15 PM             13              6      47%
    4:30 PM             17              9      55%
    4:45 PM             14              6      39%
    5:00 PM             20             10      48%
    5:15 PM             12              4      35%
    5:30 PM             13              6      43%
    5:45 PM             22             10      47%
    6:00 PM             18              8      44%
    6:15 PM             16              6      39%
    6:30 PM             18              8      44%
    6:45 PM             16              7      41%
    7:00 PM             16              6      36%
    7:15 PM             23              9      39%
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         7:30 PM              13               6      48%
         7:45 PM              19               8      44%
         8:00 PM              21              10      47%
         8:15 PM              14               5      35%
         8:30 PM              15               5      35%
         8:45 PM              15               7      44%
         9:00 PM              19               8      40%
         9:15 PM              15               6      38%
         9:30 PM              14               5      36%
         9:45 PM               8               3      38%
        10:00 PM               8               2      29%
        10:15 PM              12               5      39%
        10:30 PM               2               1      47%
        10:45 PM               5               2      31%
Source: OIG analysis of FAA data.


Figure G-4. O’Hare
Figure G-4 compares the number of scheduled and delayed flights at O’Hare
airport from 6:00 am and continuing through 9:45 pm.
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         6:00 AM              34               5      14%
         6:15 AM              17               3      15%
         6:30 AM              21               3      15%
         6:45 AM              30               4      14%
         7:00 AM              40               6      14%
         7:15 AM              44               7      15%
         7:30 AM              27               4      13%
         7:45 AM              39               7      18%
         8:00 AM              58              11      19%
         8:15 AM              45               9      21%
         8:30 AM              38               7      18%
         8:45 AM              46               8      18%
         9:00 AM              49              10      20%
         9:15 AM              33               6      18%
         9:30 AM              32               7      22%
         9:45 AM              43              11      25%
        10:00 AM              31               6      20%
        10:15 AM              34               6      18%
        10:30 AM              40               8      19%
        10:45 AM              34               8      22%
        11:00 AM              43               9      21%
        11:15 AM              27               5      18%
        11:30 AM              30               6      20%
        11:45 AM              39              10      25%
        12:00 PM              46              13      27%
        12:15 PM              38               8      21%
        12:30 PM              39               8      21%
                     Scheduled       Delayed        Delay
   Quarter Hour
                      Flights        Flights        Rate
        12:45 PM              35                8      24%
         1:00 PM              54               17      32%
         1:15 PM              31               10      31%
         1:30 PM              34               11      33%
         1:45 PM              39               10      25%
         2:00 PM              37               11      30%
         2:15 PM              39               11      29%
         2:30 PM              35               10      28%
         2:45 PM              31               10      33%
         3:00 PM              43               13      30%
         3:15 PM              40               13      32%
         3:30 PM              37               11      31%
         3:45 PM              35               12      33%
         4:00 PM              43               15      36%
         4:15 PM              49               16      34%
         4:30 PM              36               12      34%
         4:45 PM              34               12      34%
         5:00 PM              48               18      37%
         5:15 PM              44               16      36%
         5:30 PM              34               13      38%
         5:45 PM              43               15      35%
         6:00 PM              48               21      44%
         6:15 PM              30               13      43%
         6:30 PM              43               18      41%
         6:45 PM              38               13      34%
         7:00 PM              38               14      37%
         7:15 PM              48               17      35%
         7:30 PM              40               14      35%
         7:45 PM              47               18      38%
         8:00 PM              43               15      34%
         8:15 PM              48               19      40%
         8:30 PM              34               12      36%
         8:45 PM              35               13      36%
         9:00 PM              40               16      40%
         9:15 PM              30               11      38%
         9:30 PM              24                9      37%
         9:45 PM              26               10      37%
Source: OIG analysis of FAA data.


Figure G-5. Atlanta
Figure G-5 compares the number of scheduled and delayed flights at Atlanta
airport from 6:00 am and continuing through 9:45 pm.
                     Scheduled       Delayed        Delay
   Quarter Hour
                      Flights        Flights        Rate
         6:00 AM                 8              1       9%
         6:15 AM                11              1      13%
         6:30 AM                11              3      25%
         6:45 AM                14              1       9%
               Scheduled    Delayed        Delay
Quarter Hour
                Flights     Flights        Rate
    7:00 AM             7              1      10%
    7:15 AM            35              3       9%
    7:30 AM            33              3       8%
    7:45 AM            17              1       6%
    8:00 AM            43              4       9%
    8:15 AM            48              6      13%
    8:30 AM            45              7      15%
    8:45 AM            57              7      13%
    9:00 AM            44              6      14%
    9:15 AM            37              5      13%
    9:30 AM            59              9      16%
    9:45 AM            58             12      21%
   10:00 AM            51              9      18%
   10:15 AM            43              9      21%
   10:30 AM            28              5      18%
   10:45 AM            43             11      24%
   11:00 AM            43             11      25%
   11:15 AM            41              7      18%
   11:30 AM            25              4      18%
   11:45 AM            27              4      15%
   12:00 PM            44              9      19%
   12:15 PM            41              8      19%
   12:30 PM            30              6      20%
   12:45 PM            41              7      16%
    1:00 PM            41              7      16%
    1:15 PM            29              5      16%
    1:30 PM            40              9      24%
    1:45 PM            50             13      25%
    2:00 PM            52             10      20%
    2:15 PM            45              9      20%
    2:30 PM            30              6      22%
    2:45 PM            47             13      28%
    3:00 PM            53             18      34%
    3:15 PM            52             15      30%
    3:30 PM            41             12      30%
    3:45 PM            33             10      30%
    4:00 PM            46             15      32%
    4:15 PM            44             15      34%
    4:30 PM            52             17      34%
    4:45 PM            51             17      33%
    5:00 PM            21              7      31%
    5:15 PM            36             13      36%
    5:30 PM            45             18      40%
    5:45 PM            46             19      42%
    6:00 PM            40             14      35%
    6:15 PM            42             15      35%
    6:30 PM            41             14      34%
    6:45 PM            34             12      36%
    7:00 PM            46             18      39%
    7:15 PM            50             22      43%
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         7:30 PM              48              22      45%
         7:45 PM              53              20      37%
         8:00 PM              27              11      42%
         8:15 PM              23               7      32%
         8:30 PM              55              23      41%
         8:45 PM              49              20      41%
         9:00 PM              46              17      38%
         9:15 PM              23              10      42%
         9:30 PM              29              11      36%
         9:45 PM              42              20      48%
Source: OIG analysis of FAA data.


Figure G-6. San Francisco
Figure G-6 compares the number of scheduled and delayed flights at San
Francisco airport from 6:00 am and continuing through 10:45 pm.
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         6:00 AM         15             3          18%
         6:15 AM          8             1          12%
         6:30 AM          7             1          13%
         6:45 AM         15             2          14%
         7:00 AM         18             3          19%
         7:15 AM         10             3          27%
         7:30 AM         13             2          12%
         7:45 AM         12             2          14%
         8:00 AM         19             4          19%
         8:15 AM         22             4          18%
         8:30 AM         15             4          27%
         8:45 AM         14             4          26%
         9:00 AM         19             6          31%
         9:15 AM         22             7          33%
         9:30 AM         22             6          29%
         9:45 AM         22             7          33%
        10:00 AM         15             7          44%
        10:15 AM         13             5          38%
        10:30 AM         21            10          47%
        10:45 AM         25            11          45%
        11:00 AM         21             8          38%
        11:15 AM         17             8          45%
        11:30 AM         12             6          48%
        11:45 AM         21             8          40%
        12:00 PM         21             8          36%
        12:15 PM         17             8          45%
        12:30 PM         18             8          44%
        12:45 PM         23            13          56%
         1:00 PM         22            11          48%
         1:15 PM         20             9          43%
         1:30 PM         16             9          56%
                     Scheduled      Delayed       Delay
   Quarter Hour
                      Flights       Flights       Rate
         1:45 PM         15             7         45%
         2:00 PM         19             9         48%
         2:15 PM         12             6         48%
         2:30 PM         14             6         46%
         2:45 PM         19            10         52%
         3:00 PM         20             8         42%
         3:15 PM         13             6         45%
         3:30 PM         17             8         47%
         3:45 PM         16             9         53%
         4:00 PM         21            10         45%
         4:15 PM          9             4         47%
         4:30 PM          8             3         40%
         4:45 PM         15             6         38%
         5:00 PM         12             5         38%
         5:15 PM         13             4         34%
         5:30 PM         15             6         40%
         5:45 PM         15             5         33%
         6:00 PM         15             5         33%
         6:15 PM         16             8         48%
         6:30 PM          8             3         42%
         6:45 PM         19             7         38%
         7:00 PM         18             6         35%
         7:15 PM         17             7         38%
         7:30 PM         13             5         37%
         7:45 PM         21             9         42%
         8:00 PM         18             6         34%
         8:15 PM         12             5         38%
         8:30 PM         12             5         41%
         8:45 PM         15             5         34%
         9:00 PM         14             5         38%
         9:15 PM         13             5         38%
         9:30 PM         15             6         39%
         9:45 PM         22             8         38%
        10:00 PM         11             4         38%
        10:15 PM         12             5         41%
        10:30 PM         19             8         42%
        10:45 PM         17            10         57%
Source: OIG analysis of FAA data.


Figure G-7. Boston
Figure G-7 compares the number of scheduled and delayed flights at Boston
airport from 6:00 am and continuing through 9:45 pm.
                     Scheduled      Delayed       Delay
   Quarter Hour
                      Flights       Flights       Rate
         6:00 AM              16              3      16%
         6:15 AM               7              1      11%
         6:30 AM              10              1      12%
         6:45 AM              10              3      26%
               Scheduled     Delayed       Delay
Quarter Hour
                Flights      Flights       Rate
    7:00 AM             25             4      18%
    7:15 AM             17             2      14%
    7:30 AM             11             2      19%
    7:45 AM             11             2      19%
    8:00 AM             18             3      17%
    8:15 AM             16             2      14%
    8:30 AM             16             3      18%
    8:45 AM             19             4      22%
    9:00 AM             18             4      20%
    9:15 AM             12             3      22%
    9:30 AM             12             4      34%
    9:45 AM             16             4      24%
   10:00 AM             17             3      20%
   10:15 AM             10             2      20%
   10:30 AM             12             2      19%
   10:45 AM              9             2      21%
   11:00 AM             16             3      21%
   11:15 AM             12             2      15%
   11:30 AM             11             2      20%
   11:45 AM             12             2      20%
   12:00 PM             14             3      19%
   12:15 PM             12             2      21%
   12:30 PM             13             3      21%
   12:45 PM              8             2      20%
    1:00 PM             18             4      23%
    1:15 PM             13             3      20%
    1:30 PM             15             4      26%
    1:45 PM             15             3      22%
    2:00 PM             14             4      28%
    2:15 PM             13             3      24%
    2:30 PM             18             4      21%
    2:45 PM              8             2      30%
    3:00 PM             18             5      28%
    3:15 PM             10             3      26%
    3:30 PM             11             3      28%
    3:45 PM             13             4      29%
    4:00 PM             16             4      26%
    4:15 PM             14             4      29%
    4:30 PM             18             5      29%
    4:45 PM             22             7      34%
    5:00 PM             18             6      32%
    5:15 PM             16             6      36%
    5:30 PM             20             8      40%
    5:45 PM             22             8      34%
    6:00 PM             17             7      39%
    6:15 PM             14             5      37%
    6:30 PM             23             8      35%
    6:45 PM             18             7      40%
    7:00 PM             16             6      36%
    7:15 PM             16             6      36%
                     Scheduled      Delayed       Delay
   Quarter Hour
                      Flights       Flights       Rate
         7:30 PM              12              5      38%
         7:45 PM              12              5      43%
         8:00 PM              18              6      32%
         8:15 PM              11              3      26%
         8:30 PM              12              4      32%
         8:45 PM              14              5      32%
         9:00 PM               7              2      29%
         9:15 PM               7              2      26%
         9:30 PM               5              1      22%
         9:45 PM               6              3      48%
Source: OIG analysis of FAA data.


Figure G-8. Philadelphia
Figure G-8 compares the number of scheduled and delayed flights at
Philadelphia airport from 6:00 am through 9:45 pm.
                     Scheduled      Delayed       Delay
   Quarter Hour
                      Flights       Flights       Rate
         6:00 AM              12              3      21%
         6:15 AM               9              2      25%
         6:30 AM              17              3      15%
         6:45 AM              19              3      15%
         7:00 AM               7              2      24%
         7:15 AM              15              3      19%
         7:30 AM              23              7      30%
         7:45 AM              18              6      34%
         8:00 AM              15              4      26%
         8:15 AM              17              4      25%
         8:30 AM              22              4      19%
         8:45 AM              17              3      18%
         9:00 AM              14              3      21%
         9:15 AM              16              3      21%
         9:30 AM              22              6      27%
         9:45 AM              20              6      29%
        10:00 AM              17              7      39%
        10:15 AM              13              3      22%
        10:30 AM              22              5      24%
        10:45 AM              13              3      25%
        11:00 AM              14              3      23%
        11:15 AM              18              5      29%
        11:30 AM              17              5      29%
        11:45 AM              16              4      23%
        12:00 PM              10              2      20%
        12:15 PM               7              2      26%
        12:30 PM              18              4      24%
        12:45 PM              18              5      26%
         1:00 PM              16              4      25%
         1:15 PM              18              5      28%
         1:30 PM              22              6      29%
                     Scheduled      Delayed        Delay
   Quarter Hour
                      Flights       Flights        Rate
         1:45 PM              23               6      27%
         2:00 PM              16               4      27%
         2:15 PM              15               4      26%
         2:30 PM              23               6      25%
         2:45 PM              17               5      27%
         3:00 PM              17               5      30%
         3:15 PM              18               5      30%
         3:30 PM              19               8      41%
         3:45 PM              23               9      39%
         4:00 PM              21               8      37%
         4:15 PM              20               8      38%
         4:30 PM              17               5      27%
         4:45 PM              22               7      32%
         5:00 PM              21               8      39%
         5:15 PM              20               7      36%
         5:30 PM              21               9      41%
         5:45 PM              22              11      49%
         6:00 PM              21              11      51%
         6:15 PM              21              11      53%
         6:30 PM              18              11      64%
         6:45 PM              20               9      47%
         7:00 PM              20               8      38%
         7:15 PM              20               7      36%
         7:30 PM              20               8      38%
         7:45 PM              19               7      37%
         8:00 PM               9               3      36%
         8:15 PM              10               4      39%
         8:30 PM              19               6      32%
         8:45 PM              19               7      37%
         9:00 PM              18               6      35%
         9:15 PM              15               5      34%
         9:30 PM              10               3      32%
         9:45 PM              14               4      26%
Source: OIG analysis of FAA data.
